                                         AR 14-00lA
     
     
     
     
     
        FEDERAL TRADE COMMISSION

           Office of Inspector General

     




     
     
     
     
     
          Audited Financial Statements
              for Fiscal Year 2013
     
     
              Management Letter
     
     
     
                 May 2 8 , 2014
     
     
     
     

 


 
                                               UNITED STATES OF AMERICA
                                      FEDERAL TRADE COMMISSION
                                                WASHINGTON, D.C. 20580




                                                                                 May 28,2014
MEMORANDUM


TO:             Chairwoman Edith Ramirez
                Commissioner Julie Brill
                Commissioner Maureen K. Ohlhausen
                Commissioner Joshua D. Wright
                Commissioner Terrell McSweeny

FROM:           Scott Wilson               j          _} /    /
                Inspector General     -p~ ~....-/     ,{/
SUBJECT:        Transmittal ofthe Management Letter for the FY 2013 Financial Statement Audit

       On December 16, 2013, we transmitted to you the financial statement audit performed
by the independent public accounting finn of Brown & Company CPAs, LLC. The auditors
issued an unmodified (clean) opinion on the financial statements.

       When performing an audit of an agency's major financial systems and accounting
processes, auditors often detect deficiencies in internal controls that do not rise to a level of
seriousness to be reported in the auditor' s opinion. These findings are communicated to the
auditee in a management letter. This memo transmits a copy ofthe FY 2013 Financial
Statement Management Letter that reports on such findings; this letter does not affect the
unmodified opinion on the financial statements.

       The management letter contains five recommendations that warrant management' s
consideration. These recommendations, all of which have been discussed with the
appropriate members of management, are intended to improve the FTC's internal control or
result in other operating efficiencies. Management generally concurred with the
recommendations in the Management Letter. A copy of their response is attached .


cc:   Heather Hippsley, Chief of Staff
      David Robbins, Chief Executive Officer
      Pat Bak, Deputy Executive Officer
      Monique Fortenberry, Deputy Executive Officer
      Joe O' Leska, Deputy Chief Financial Officer
      Milissa Young-Loiselle, Acting Assistant CFO for Financial Policy, Reporting, and Controls
      Valerie Green, Deputy Performance Improvement Officer
FEDERAL TRADE COMMISSION
    MANAGEMENT LETTER

      For the Year Ended
      September 30, 2013
                                       FEDERAL TRADE COMMISSION
                                            September 30, 2013

                              FY 2013 MANAGEMENT LETTER COMMENT


                  TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)



Transmittal Letter.................................................................................................................1
Appendix A – Management Letter Comment ......................................................................2

          ML-13-1 Federal Acquisition Regulation (FAR) Compliance ...............................2

          ML-13-2 Liquidation of Obligations .......................................................................3

          ML-13-3 Redress Accounts Receivable Collections ...............................................3

          ML-13-4 Complementary Client Controls for IBC OFF .........................................4

          ML-13-5 Complementary Client Controls for IBC FPPS .......................................5

Appendix B – Status of Prior Years Recommendations .....................................................7

Appendix C –Management’s Response .............................................................................13
May 14, 2014


Federal Trade Commission
Washington, D.C.

To Management and the Commissioners of the Federal Trade Commission

In planning and performing our audit of the financial statements of the Federal Trade
Commission (FTC) as of and for the year ended September 30, 2013, on which we have issued
our report dated December 16, 2013, in accordance with auditing standards generally accepted in
the United States of America, we considered FTC’s internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances but not for the
purpose of expressing an opinion on the effectiveness of FTC’s internal control. Accordingly, we
do not express an opinion on the effectiveness of FTC’s internal control. This report is based on
our knowledge as of the date of our report on the financial statements, obtained in performing our
audit thereof, and should be read with that understanding.

Our consideration of internal control was for the limited purpose described in the preceding
paragraph and was not designed to identify all deficiencies in internal control. However, during
the audit, we noted certain matters involving the internal control and other operating matters that
are presented for your consideration. This letter does not affect our report dated December 16,
2013 on the financial statements. The management letter comments are summarized in Appendix
A. The status of prior year recommendations is presented in Appendix B. Although we have
included management’s written response to our comments in Appendix C, such responses have
not been subjected to the auditing procedures applied in our audit of the financial statements and,
accordingly, we do not express an opinion or provide any form of assurance on the
appropriateness of the response or the effectiveness of any corrective actions described therein.

This communication is intended solely for the information and use of the management of FTC,
OMB, OIG and Congress, and is not intended to be and should not be used by anyone other than
these specified parties.


Very truly yours,


Largo, Maryland




                      1101 MERCANTILE LANE, SUITE 122 ● LARGO, MD 20774
     PHONE: (240) 770-4900 ● FAX: (301) 773-2090 ● mail@brownco-cpas.com ● www.brownco-cpas.com
                                                                                      Appendix A


                             FEDERAL TRADE COMMISSION
                                  September 30, 2013

                      FY 2013 MANAGEMENT LETTER COMMENT

ML-13-1        Federal Acquisition Regulation (FAR) Compliance Should Be Strengthened-
(Repeat Condition incorporates ML-12-9 Contract Files Lack Documentation)

Condition:
During the Federal Acquisition Regulation (FAR) compliance testing, we examined thirteen (13)
procurement actions that were awarded in fiscal year 2013 and noted that the justification of
contractor selection was not maintained for one of the actions tested.

Criteria:
FAR 4.801 General
         The head of each office performing contracting, contract administration, or paying
         functions shall establish files containing the records of all contractual actions.
         The documentation in the files (See 4.803) shall be sufficient to constitute a complete
         history of the transaction for the purpose of –
                 Providing a complete background as a basis for informed decisions at each step
                 in the acquisition process;
                 Supporting actions taken;
                 Providing information for reviews and investigations; and
                 Furnishing essential facts in the event of litigation or congressional inquiries.

Cause:
Review of the contract file was not performed to ensure the file is complete and includes selection
justification. The contract specialist that worked on this contract file was unable to locate any
additional information regarding the contractor selection justification.

Effect:
Failure to appropriately document contract actions or maintain files in accordance with the
requirements could place FTC at risk of non-compliance with procurement regulations. In
addition, this could potentially lead to contractor protest.

Recommendations:
We recommend FTC review all contract files for completeness and ensure contract files include
justification for the award in accordance with federal guidelines. We recommend the justification
include the following information:
      The authority and supporting rationale and, if applicable, a demonstration of the proposed
         contractor’s unique qualifications to provide the required supply or service.
      A determination by the ordering activity contracting officer that the order represents the
         best value consistent with federal guidelines.
      Any other facts supporting the justification.
      The ordering activity contracting officer’s certification that the justification is accurate
         and complete to the best of the contracting officer’s knowledge and belief.


2|Page
ML-13-2        Liquidation of Obligations - (Repeat Condition-incorporates ML-12-8 Close
out Procedures on Contracts Needs Improvement)

Condition:
During our testing of undelivered orders at June 30, 2013, we noted that 15 out of 20 transactions
tested we considered invalid (lacking supporting documentation) or inactive transactions. The
invalid transactions should be de-obligated, which would enable the unused funds to become
available for other program needs. The inactive transactions should be reviewed to determine if
they are valid or should be de-obligated. The undelivered orders population tested totaled
$16,697,405 and the exceptions noted totaled $1,755,311.

Criteria:
OMB A-123, Management’s Responsibility for Internal Controls, requires management to be
responsible for establishing and maintaining internal controls to achieve the objectives of
effective and efficient operations, reliable financial reporting and compliance with applicable
laws and regulations.

Cause:
Review of undelivered orders to determine validity is not being completed on a periodic basis.

Effect:
Undelivered order balances could be significantly misstated. Also, the lack of adequate processes
to review undelivered orders increases the risk that material misstatements may occur and not be
detected.

Recommendations:
We recommend FTC perform the following:
    Review and determine the validity of undelivered orders on a semi-annual basis; and
    Develop policy requiring certification for all open obligation balances that are inactive
       for more than 12 months.

ML-13-3         Redress Accounts Receivable (AR) - Collections

Condition:
During our year-end testing of the Redress Accounts Receivable balance as of September 30,
2013, we tested a sample of 15 Redress Accounts receivable collections and noted that there was
one matter number in which the collection amount selected did not agree to the accounts
receivable collection subsidiary ledger maintained by the Finance Office. A collection should
have been applied to a redress account receivable, but instead was posted as a miscellaneous
receipt. As a result, Redress accounts receivable was overstated by $1 million. The Financial
Management Office (FMO) posted an adjustment to properly reflect Redress Accounts
Receivable in the financial statements.

Criteria:
OMB A-123, Management’s Responsibility for Internal Controls, requires management to be
responsible for establishing and maintaining internal controls to achieve the objectives of
effective and efficient operations, reliable financial reporting and compliance with applicable
laws and regulations.



3|Page
Cause:
Process owner thought the two collections were not related to a particular matter number.
Therefore, both collections were inadvertently recorded as miscellaneous receipts.

Effect:
Redress Accounts Receivable Summary Report was incorrect.

Recommendations:
We recommend FTC reconcile the total collection amount as reported on the Redress AR
Summary Excel schedule to the redress accounts receivable collection subsidiary ledger for
completeness and accuracy.

ML-13-4       Complementary Client Controls for IBC OFF - (Repeat Condition-
incorporates ML-12-2 Documentation for IBC Controls Needs Improvement, for OFF)

Condition:
The FTC is required to document and fully implement the “Client Control Considerations”
(complementary client controls) identified in the “Report on the Interior Business Center's
Description of Its Oracle Federal Financials (OFF) and the Suitability of the Design and
Operating Effectiveness of Its Controls (SSAE 16 - Type 2 Report) for the period of July 1, 2012
to June 30, 2013.” During our audit, we were informed that FTC has not fully documented and
implemented its complementary client controls required by Interior Business Center's (IBC's)
system, Oracle Federal Financials. Some of the complementary client controls include:

      Computer Security Incident Response procedures have been developed in coordination
       with the IBC.
      Thorough user acceptance testing for any OFF patches and upgrades are performed and
       results communicated to the IBC.
      Production cycles are properly maintained, and changes to them are communicated
       timely to the IBC.
      Incompatible job functions surrounding the processing of OFF transactions at the client
       sites are identified and pertinent policies and procedures are enforced to segregate these
       job functions.
      Data provided to the IBC for new client conversion is timely and accurate.
      Banking and vendor information provided to the IBC for data entry is authorized and
       accurate.

Criteria:
31 U.S.C Section 902(a) (3) states that an agency Chief Financial Officer shall “develop and
maintain an integrated agency accounting and financial management system, including financial
reporting and internal controls, which provide for complete, reliable, consistent, and timely
information which is prepared on a uniform basis and which is responsive to the financial
information needs of agency management.”

OMB Circular A-127, Financial Management Systems, states that the agency financial
management system “shall be designed to provide for effective and efficient interrelationships
between software, hardware, personnel, procedures, controls, and data contained within the
system….”



4|Page
Cause:
The Financial Management Office (FMO) has not completed the process of documenting and
implementing the complementary client controls; but stated that they are currently working with
the Office of the Chief Information Officer (OCIO) to document and implement all required
controls.

Effect:
IBC describes the suitability of design and operating effectiveness of controls in processing the
FTC’s transactions. Certain control objectives specified in the IBC’s description can be achieved
only if complementary Client Controls are suitably designed and operating effectively. Without
fully documenting and implementing these complementary client controls and assessing these
control processes on an annual basis, the FTC is not able to determine if processes remain
effective and are still in place.

Recommendations:
We recommend FMO’s OFF information system owner formally document and implement its
policies and procedures that address the Client Control Considerations and provide the required
formal documentation to the OCIO’s Information Assurance Branch.

ML-13-5       Complementary Client Controls for IBC FPPS - (Repeat Condition-
incorporates ML-12-2 Documentation for IBC Controls Needs Improvement, for FPPS)

Condition:
The FTC is required to document and fully implement the “Client Control Considerations”
(complementary client controls) identified in the “Report on the Interior Business Center's
Description of Its Federal Personnel and Payroll System (FPPS) and the Suitability of the Design
and Operating Effectiveness of Its Controls (SSAE 16 - Type 2 Report) for the period of July 1,
2012 to June 30, 2013.” During our audit, we were informed that FTC has not fully documented
and implemented its complementary client controls required to by Interior Business Center's
(IBC's) system, Federal Personnel and Payroll System (FPPS). Some of the complementary
client controls include:

       Designated FPPS Security Points of Contacts (SPOC) and Quicktime and
        webTA administrators ensure that the client’s employees and contractors adhere to
        rules of behavior with respect to the use and protection of the IBC-managed
        computer systems and applications, based on applicable government security
        guidelines and recommendations.
       Computer Security Incident Response procedures for IBC-managed systems have
        been developed in coordination with the IBC.
       User access to FPPS payroll and personnel functions is properly authorized and
        assigned, segregation of duties is properly maintained, and separating employees
        and contractors' access to IBC applications is timely removed.
       Labor Cost Files are reconciled for accuracy.
       Payroll transactions provided to the IBC are complete, accurate, and appropriately
        authorized and approved.
       Personnel transactions are properly authorized and input into FPPS.
       Access reviews are performed at least annually to validate employee access to IBC
        applications.




5|Page
Criteria:
31 U.S.C. Section 902(a) (3) states that an agency Chief Financial Officer shall “develop and
maintain an integrated agency accounting and financial management system, including financial
reporting and internal controls, provide for complete, reliable, consistent, and timely information
which is prepared on a uniform basis and which is responsive to the financial information needs
of agency management.”

OMB Circular A-127, Financial Management Systems, states that the agency financial
management system “shall be designed to provide for effective and efficient interrelationships
between software, hardware, personnel, procedures, controls, and data contained within the
system….”

Cause:
The Human Capital Management Office (HCMO) has not completed the process of documenting
and implementing the complementary client controls; but stated that they are currently working
with the OCIO to finalize its policies and procedures that address the FPPS “Client Control
Considerations” and document its compliance.

Effect:
IBC describes the suitability of design and operating effectiveness of controls in processing the
FTC’s transactions. Certain control objectives specified in the IBC’s description can be achieved
only if complementary Client Controls are suitably designed and operating effectively. Without
fully documenting and implementing these complementary client controls and assessing these
control processes on an annual basis, the FTC is not able to determine if processes remain
effective and are still in place.

Recommendations:
We recommend HCMO’s FPPS information system owner formally document its policies and
procedures that address the Client Control Considerations and provide the required formal
documentation to the OCIO’s Information Assurance Branch.




6|Page
                                                                                                                                                               Appendix B
                                                   FEDERAL TRADE COMMISSION September 30, 2013
                                                   STATUS OF PRIOR YEARS RECOMMENDATIONS

                                                                 Status of FY 2012 Recommendations
Report Reference       Description                              Recommendation                                           Management Corrective                 OIG
                                                                                                                         Action1                               Comment on
                                                                                                                                                               status as of
                                                                                                                                                               September
                                                                                                                                                               30, 2013
ML-12-1                During the FY 2012 audit, the            We recommend that FMO review and strengthen its          FMO is reviewing its                  In progress
                       auditors identified a lack of            capitalization policies and procedures to ensure that:   procedures for capitalizing
                       oversight and written procedures for                                                              assets with the overall goal of
                                                                 i) capitalization determinations are being made by      strengthening controls over
                       capitalization of assets. The auditors
Capitalization                                                  individuals designated to do so;                         the process and is currently
                       identified $1 million in fixed assets
Procedures Need                                                                                                          documenting roles and
                       that were not properly capitalized       ii) they are versed in the capitalization standards      responsibilities of the parties
Improvement
                       and FMO identified $2.5 million in                                                                involved. Upon completion
                       assets capitalized in prior years that   iii) they document their determinations.                 of such documentation, FMO
                       needed to be written off.                                                                         will train the employees
                                                                                                                         involved in the process. FMO
                                                                                                                         is targeting a completion date
                                                                                                                         of March 2014.
ML-12-2                The FTC has not fully documented         1.   For the Human Capital Management Office             1. HCMO is working with the           1. Closed and
                       its policies and procedures for its           (HCMO): we recommend that i) HCMO’s                       OCIO to finalize its policies   consolidated
                       complementary client controls.                FPPS information system owner formally                    and procedures that address     into ML-13-5
                                                                     documents its policies and procedures that                the FPPS “Client Control
                                                                     address the “Client Control Considerations” ii)           Considerations” and
                                                                     HCMO’s FPPS information system owner                      document compliance. The
Documentation of                                                     provides the required formal documentation to             expected completion date is
IBC System                                                           the OCIO’s Information Assurance Branch.                  December 31, 2013.
Complementary


1
    Management corrective actions and comments are presented as provided by David Robbins memo dated October 23, 2013



7|Page
                                  Status of FY 2012 Recommendations
Report Reference   Description   Recommendation                                         Management Corrective                OIG
                                                                                        Action1                              Comment on
                                                                                                                             status as of
                                                                                                                             September
                                                                                                                             30, 2013
Client Controls                  2.   For the Financial Management Office (FMO):        2.   In 2008, in consultation        2. Closed and
Needs                                 we recommend that i) FMO’s OFF information             with OCIO, FMO                  consolidated
Improvement                           system owner formally documents its policies           documented the                  into ML-13-6
                                      and procedures that address the “Client Control        complementary client
                                      Considerations” ii) FMO’s OFF information              controls that were in place
                                      system owner provides the required formal              and provided this
                                      documentation to the OCIO’s Information                documentation to the OIG.
                                      Assurance Branch.                                      Subsequently, the IBC
                                                                                             provided its customers
                                                                                             (including FTC) with new
                                                                                             guidance, comprised of a
                                                                                             21-point list of customer
                                                                                             controls that should be
                                                                                             implemented and
                                                                                             documented. Many of the
                                                                                             controls set forth in the new
                                                                                             guidance are already in
                                                                                             place. FMO is currently
                                                                                             working with the OCIO to
                                                                                             ensure that all of the client
                                                                                             controls are in place, are
                                                                                             properly documented, and
                                                                                             supported by policy. FMO
                                                                                             expects to complete this
                                                                                             effort by December 2013.




8|Page
                                                              Status of FY 2012 Recommendations
Report Reference    Description                              Recommendation                                          Management Corrective               OIG
                                                                                                                     Action1                             Comment on
                                                                                                                                                         status as of
                                                                                                                                                         September
                                                                                                                                                         30, 2013
ML-12-3             During the FY 2012 audit, the            We recommend that FMO establish a crosswalk             FMO’s Acquisition office has        In progress
                    auditors identified: A) Interest paid    between OFF and the contracts written so that IBC       implemented a revised Contract
Recording of        on invoices where funding was not        has specific instruction on how to establish an         Line Item Numbering (CLIN)
Obligations Needs                                                                                                    structure based on a
                    on the right line item and B) an         obligation in Oracle. This information should also be
Improvement                                                                                                          government-wide standard. The
                    invoice paid from the incorrect fiscal   distributed to CORs in order to track contracts they    Acquisition Office will prepare
                    year’s funds.                            are in charge of.                                       a crosswalk to review with IBC
                                                                                                                     so that acquisitions data entered
                                                                                                                     in FTC’s financial system is
                                                                                                                     consistent with the standard
                                                                                                                     CLIN structure. The final
                                                                                                                     crosswalk will
                                                                                                                     be made available to
                                                                                                                     CORs to help them review their
                                                                                                                     contract line items in the
                                                                                                                     financial system. Expected
                                                                                                                     completion of
                                                                                                                     the final crosswalk is
                                                                                                                     January 2014.

ML-12-4             An accrual in the amount of $1           We recommend that FMO: i) review year-end               FMO has updated procedures          Closed
                    million was not posted to the general    accrual procedures to determine additional              for accruing accounts payable at
Accounts Payable    ledger by the FTC.                       procedures needed to ensure payables are properly       year-end. Updates include
Understated                                                  reflected in the Agency’s financial statement; ii)      additional guidance to CORs,
                                                             consider researching financial systems that automate    which was disseminated to
                                                             the accrual process.                                    agency CORs in a memo from
                                                                                                                     the Chief Financial Officer on
                                                                                                                     September 3, 2013 and more
                                                                                                                     comprehensive procedures for
                                                                                                                     accounting staff. The updated
                                                                                                                     process is being executed



9|Page
                                                               Status of FY 2012 Recommendations
Report Reference     Description                              Recommendation                                         Management Corrective               OIG
                                                                                                                     Action1                             Comment on
                                                                                                                                                         status as of
                                                                                                                                                         September
                                                                                                                                                         30, 2013
                                                                                                                     during the FY13 close and
                                                                                                                     FMO considers this
                                                                                                                     recommendation fully
                                                                                                                     implemented and it should be
                                                                                                                     closed.
ML-12-5              During the FY 2012 audit, the            We recommend that FMO:                                 FMO has developed a                 In progress
                     auditors noted delays in closing the      i) review the monthly and year-end closing planning   comprehensive tracking sheet to
Closing Procedures   general ledger timely for the last two   process and identify procedures and improvements       address closing procedures, and
Should be                                                     needed to make the year-end close more of a            has held weekly meetings with
                     years. In FY 2011 the general
Improved                                                      streamlined process.                                   relevant offices and IBC to
                     ledger was not closed until October      ii) For undelivered orders, review the source of the   coordinate end-of-year closing
                     31. In FY 2012, FMO closed out the       manual entries and make corrections to ensure that     activities. These procedures are
                     general ledger on October 23;            the balance in these general ledger accounts           being implemented as part of
                     however, two additional year-end         reconciles to the subsidiary ledger.                   the FY13 close. In addition,
                     journal entries were subsequently                                                               FMO has identified all of the
                     posted that completed all journal                                                               “manual” entries that cause
                                                                                                                     discrepancies between the
                     entries for the year on November
                                                                                                                     general and subsidiary ledgers
                     2nd.                                                                                            for undelivered orders. FMO is
                                                                                                                     in the process of verifying
                                                                                                                     whether those entries are valid
                                                                                                                     and will record adjusting entries
                                                                                                                     as appropriate. The estimated
                                                                                                                     completion date is January
                                                                                                                     2014.
ML-12-6              During the audits for FY 2008-FY         We recommend that FMO                                  (i) FMO worked with IBC in          Closed
                     2012, the auditors discovered that        (i) research solutions with IBC to establish a        FY13 to produce a detailed
FY 2008: Reporting   the accounts payable subsidiary          subsidiary accounts payable ledger.                    listing of the Accounts Payable
Functions for        ledger did not agree with the general
                                                                                                                     Subledger that is reconciled to
Accounts Payable     ledger. The accounts payable at          (ii) review the source of manual entries in the
                     September 30, 2013 did not agree to      general ledger and make necessary corrections to       the general ledger. (ii) FMO



10 | P a g e
                                                              Status of FY 2012 Recommendations
Report Reference     Description                             Recommendation                                          Management Corrective              OIG
                                                                                                                     Action1                            Comment on
                                                                                                                                                        status as of
                                                                                                                                                        September
                                                                                                                                                        30, 2013
Subsidiary Ledger    the subsidiary ledger by                ensure that the subsidiary created by FMO               made all necessary corrections
Need Improvement     approximately $400,000                  reconciles to the general ledger.                       of manual (i.e. journal voucher)
                                                                                                                     entries in the general ledger.

ML-12-8              During the FY 2012 audit, the           We recommend that FMO review established                FMO plans to review its            Closed and
                     auditors stated they continue to find   procedures to ensure that all procedures are in place   contracts closeout procedures      consolidated
FY 2009: Close-out   many order/contracts that have been     and if necessary add procedures needed to close out     and update them as necessary.      with ML-13-3
Procedures on                                                contracts on a timely basis.
                     completed but remain in undelivered
Contracts Needs
Improvement          orders.


ML-12-9              During the FY 2012 audit testing,       We recommend that the Assistant CFO for                 The acquisition branch is          Closed and
                     the auditors identified several         Acquisition review procedures established in SOP        reviewing and, if necessary,       consolidated
FY 2010: Contract    contracts that were awarded under       2011-02 with his staff to ensure that these             updating its standard operating    with ML-13-1
Files Lack                                                   procedures are fully implemented in FY 2013.            procedures for file
                     the Federal Supply Schedule. The
Documentation                                                                                                        documentation and plans to
                     contract files contained the final                                                              provide training to all
                     award notice without any                                                                        acquisition staff to ensure
                     documentation in the contract files                                                             adherence. Expected
                     to indicate the methodology of how                                                              completion is January 2014
                     this contract was awarded. The lack
                     of documentation makes it difficult
                     to determine that the contract was
                     awarded based on the best value to
                     the government




11 | P a g e
                                                          Status of FY 2012 Recommendations
Report Reference   Description                           Recommendation                                    Management Corrective                OIG
                                                                                                           Action1                              Comment on
                                                                                                                                                status as of
                                                                                                                                                September
                                                                                                                                                30, 2013
ML-12-10           FMO has begun implementation of       We recommend that FMO incorporate the high-risk   FMO completed its review of          Closed
                   an agency-wide fraud risk             fraud areas identified in its assessments as a    risk areas and will incorporate
FY 2010: Fraud     assessment to determine areas         supplement to the annual statement of assurance   high- risk areas into its internal
Risk Assessment                                          process.                                          control review work plan, has
                   vulnerable to fraud. The Fraud Risk
Can Enhance                                                                                                updated its standard operating
FMFIA              Assessment is being completed in                                                        procedures to ensure that a
                   phases, with the Office of the                                                          fraud risk assessment is
                   Executive Director having been                                                          performed and that the results
                   selected for the initial phase.                                                         are considered during the
                                                                                                           overall review planning process.




12 | P a g e
                                          Appendix C


               FEDERAL TRADE COMMISSION
                    September 30, 2013

                  Management’s Response




13 | P a g e
               Redress Accounts Receivable CAR)- Collections (ML-13-3)
               Management concurs with the recommendation. George Adam, Accounting Officer for
               Financial Operations in FMO is the Responsible Senior Official. FMO will perform a monthly
               reconciliation between the collections reported on the Redress sub-ledger and the Redress
               Accounts Receivable summary schedule. The target completion date for implementing the
               monthly reconciliation process is June 30, 2014.

               Complementary Client Controls for IBC OFF CML-13-4)
               Management concurs with the recommendation. Mi1issa Yaung-Loiselle, Assistant CFO for
               Bminess Integration in FMO, is the Responsible Senior Official. FMO has documented the
               existing Oracle Federal Financials (OFF) system complimentary client controls, and submitted
               them to the Office of the Chief Information Officer' s (OCIO's) Information Assurance Branch
               for review on April18, 2014. FMO will continue to evaluate and develop recommendations,
               policies, procedures and formal documentation, as necessary, to ensure that complementary
               client controls are designed, implemented and operating effectively.

               Complementary Client Controls for IBC FPPS CML-13-5)
               Management concurs with the recommendation. Karen Leydon, Chief Human Capital Officer in
               the Human Capital Management Office (HCMO) is the Responsible Senior Official. HCMO is
               documenting the existing Federal Personnel and Payroll System (FPPS) complimentary client
               controls and will submit them to the OCTO' s Information Assurance Branch for review by May
               30, 2014. The target date for HCMO to complete a draft System Security Plan (SSP) and submit
               it to OCIO for review is June 15,2014.

           Capitalization Procedures Need Improvement (ML-12-1)
           Management concurs with the recommendation. Milissa Young-Loiselle, Assistant CFO for
           Business Integration in FMO, is the Responsible Senior Official. FMO has completed its
           research regarding Federal capitalization policy and standards and has identified roles and
           responsibilities ofthe parties involved with the overall goal of strengthening policies,
           procedures and controls over the process. The next step in FMO's action plan is to develop and
           issue enhanced capitalization policies and procedures, with a target date of September 15, 2014.
           Once this milestone is achieved, FMO will develop and deliver training to key stakeholders to
           ensure that they are well-versed in the capitalization standards and the requirement to document
           their determinations.

           Recording of Obligations Needs Improvement (ML-12-3)
           Management concurs with the recommendation. Dr. John Isgrigg Ill, Assistant CFO for
           Acquisitions in FMO is the Responsible Senior Official. FMO has implemented a revised
           Contract Line Item Numbering (CLIN) structure based on a government-wide standard and
           conducted CLIN structure training for Contracting Officer' s Representatives (CORs). The next
           step in FMO's action plan is to develop a crosswalk between the FTC CLIN structure and the
           Interior Business Center (IBC) CLIN structure. This crosswalk will be provided to CORs, with
           appropriate training and reference tools, to assist them in reviewing their contract line items in
           the frnancial system, with a target completion date of July 30, 2014.



                                                             2




14 | P a g e
               Closing Procedure Should be Improved (ML-12-5)
               Management concurs with the recommendation. George Adam, Accounting Officer for
               Financial Operations in FMO, is the Responsible Senior Official. FMO developed a
               comprehensive tracking sheet to address closing procedures and held weekly meetings with
               stakeholders and IBC to coordinate FY 2013 end-of-year closing activities. FMO also
               identified and corrected all of the "manual" entries that cause discrepancies between the general
               and subsidiary ledgers for undelivered orders. FMO is currently conducting meetings with key
               internal stakeholders to identify procedures and improvements to streamline the year-end close
               process. The next step in FMO's action plan is to share FMO's recommended improvements
               with the OIG, with a target completion date of June 15, 2014. Once this milestone is achieved,
               FMO will incorporate recommended best practices into revised closing procedures for
               FY2014.

               Thank you for the opportunity to provide input to the draft FY 2013 Management Letter.




                                                               3




15 | P a g e
